CERTIFICATE OF COMPLIANCE
No.
UKPAIIGWEIKE UKPAI
Petitioner
v.

CONTINENTAL AUTOMOTIVE SYSTEMS US,
INC.,
Respondent
As required by Supreme Court Rule 33.1(h), I
certify that the petition for rehearing for a writ of
certiorari contains 2584 words, excluding the parts
of the petition that are exempted by Supreme Court
Rule 33.1(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on November 9, 2020
l✓

/s/ Ukpai I Ukpai

RECEIVED

